CERTIFICATE OF SERVICE
I, Sascha Lynch, hereby certify pursuant to the United States Supreme
Court Clerk’s Guidance of Clerk’s Office Operations dated April 17, 2020, one
copy of the Petition for Rehearing in Sascha Lynch v. Allen Y. Chao, et al.,
was mailed via United States First Class Mail to the U.S. Supreme Court. It
is hereby certified that counsel for all parties listed below required to be
served is being served one copy each of Petitioner’s PETITION FOR
REHEARING via United States Postal Service first class mail with postage
prepaid this
day of February 2021. Pursuant to Supreme Court Rule
29(5)(c) and 28 U.S.C. § 1746, a notarized verification or declaration is
included herein.
Patrick J. Gregory, Esq.
Shook, Hardy & Bacon, L.L.P.
One Montgomery, Suite 2700
San Francisco, CA 94104-4505
Counsel for Respondents Allen Y. Chao, PhD., Searle Pharmaceuticals, Inc.,
Searle Laboratories, G.D. Searle LLC, G.D. Searle & Co., Pfizer, Inc.,
Pharmacia Corporation, Monsanto Company, and AmerisourceBergen
Corporation
Email: PGREGORY@shb.com
Erin Bosnian, Esq.
Morrison & Forester
12531 High Bluff Drive, Suite 100
San Diego, CA 92130
Counsel for Respondent McKesson Corporation
Email: EBosman@mofo.com

Sascha Lynch
tmieless2t@gmail.com
Pro Se

